March 30, 2007

ANACZARINA C. HILARIO
PLANT MANAGER – SAN FRANCISCO INTERNATIONAL SERVICE CENTER

SUBJECT: Audit Report – San Francisco International Service Center –
         Inbound International Mail (Report Number FT-AR-07-012)

This report presents internal control issues over recording inbound international mail
volumes at the San Francisco International Service Center (ISC). We identified this
issue during our annual audit of the U.S. Postal Service Financial Statements – St.
Louis Information Technology and Accounting Service Center (IT/ASC) (Project Number
06BM003FT003).

                                              Background
ISCs distribute and dispatch international mail received from designated service areas
and headed to specific foreign countries or to gateway exchange offices. There are
currently five ISCs: New York, Miami, Chicago, Los Angeles, and San Francisco. ISC
personnel scan all inbound international mail receptacles1 into the Receipt Verification
System (RVS)2 for tracking and accounting purposes.

International record unit (IRU) personnel, located within the ISC, input inbound letter
class and Parcel Post® mail volumes into the international web-based application,3
communicate with foreign postal administrations (FPA), and adjust mail volumes based
on information received from FPAs. Additionally, ISC personnel break down
receptacles and scan individual inbound Express Mail® pieces into the
Military/International Dispatch Accountability System (MIDAS).4 Inbound international
mail documents kept at the IRU support international mail revenue and receivables.
Prior to calendar year (CY) 2006, the Postal Service calculated international Express
Mail billings based on number of pieces. During CY 2006, the Postal Service included
gross weight in the billing calculation. Express Mail documentation generated by the
FPA supports International Express Mail volumes.5

1
  Receptacles include trays, sacks, and boxes that usually contain more than one piece of mail.
2
  RVS was developed to process inbound international mail and captures data by receptacle, rather than each
individual piece of mail. Currently, the San Francisco ISC uses RVS for Express Mail® and Canada mail and has not
integrated it for accounting.
3
  The international web-based application allows data entry and data correction of inbound and outbound Parcels,
letters, and Express Mail bills.
4
  Employees use MIDAS to record inbound international Express Mail volumes. The Postal Service uses this
information to populate internal accounting data files and, ultimately, to record revenues.
5
  International Express Mail volumes consist of piece and, in some cases, weight information.
San Francisco International Service Center -                                                      FT-AR-07-012
 Inbound International Mail



                           Objectives, Scope, and Methodology
The objectives of this portion of the audit were to determine whether inbound
international mail volumes were accurate and whether internal controls for recording
inbound international mail volumes were adequate at the San Francisco ISC.

To accomplish our objectives, we reviewed inbound mail documents for four classes of
inbound international mail at the San Francisco ISC from October 2005 through March
2006: Express Mail, Coventry (upgraded) Parcels,6 Parcel Post, and letter class. The
San Francisco ISC was judgmentally selected based on mail volume and the length of
time since our last visit. For each class of mail reviewed, we statistically sampled
inbound mail volumes and traced them to corresponding inbound mail manifests and/or
other supporting documentation. Based on our analysis of the sampled items for letter
class mail, we judgmentally expanded our review to include inbound letter class
dispatches from FPAs for CYs 2004 and 2005. (See Appendix A.)

We conducted this audit from April 2006 through March 2007 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We discussed our
observations and conclusions with management officials February 9, 2007, and
included their comments where appropriate.

We relied on computer-generated data from MIDAS, RVS, and the international web-
based application and performed specific transaction tests on their data. Although we
did not test the reliability of these systems, we verified the accuracy of data. For
example, we traced selected inbound international mail volume information to
supporting source documents.

                                        Prior Audit Coverage
Our fiscal year (FY) 2002 financial statements audit7 reported discrepancies between
information entered into MIDAS and manifests of inbound international Express Mail
and Coventry (upgraded) Parcels. We also noted that the record retention period for
Express Mail manifests was 6 months, although the business cycle for international
Express Mail can be as long as 18 months. Management agreed with our findings and
recommendations and took action to improve the accuracy of inbound international mail
data entered into MIDAS and extended the retention period for international Express
Mail records to 3 years.



6
  Coventry (upgraded) Parcel service is a special class of Parcel Post covered by bilateral agreement between the
Postal Service and the United Kingdom postal administration.
7
  Fiscal Year 2002 Postal Service Financial Statements Audit – St. Louis Information Technology and Accounting
Service Center (Report Number FT-AR-03-008, dated January 30, 2003).




                                                       2
San Francisco International Service Center -                                                     FT-AR-07-012
 Inbound International Mail


During our FY 2003 financial statements audit, we reported the Postal Service relied on
information received from the Canada Post Corporation to record revenues.8 The
Postal Service took steps to address this issue and recognize it in the process of
establishing effective internal controls. Based on this effort coupled with the planned
implementation of the RVS system, we made no recommendations.

During our FY 2005 financial statements audit, we reported that inbound international
mail volumes were not always accurate and internal controls for recording inbound
international mail at the J. T. Weeker (Chicago) ISC needed strengthening.9
Specifically, for Express Mail and Parcel Post, there were discrepancies between
source documents and billing information recorded in the international systems.10 Also,
for Coventry (upgraded) Parcels, the Postal Service did not always request missing
source documents. In addition, the Postal Service did not have a process in place to
monitor volume data entered for inbound international mail. Management agreed with
our findings and recommendations, reassigned and trained new personnel, and
reinforced the need to request missing documents for Coventry (upgraded) Parcels. In
addition, St. Louis Integrated Business Systems Solutions Center personnel plan to
develop an exception report to help ISCs investigate Express Mail differences.

Also during FY 2005, we reported the San Francisco Airmail Records Unit processed
fewer records per workhour than the targeted productivity rate, misaligned some
workhours with workload, and performed extra work because plant operations
personnel sorted mail improperly.11 We recommended management reduce workhours,
periodically evaluate operations, and provide additional training to plant operations
personnel. Management agreed with our finding and recommendations.




8
  Internal Controls Over the Recording and Reporting of Inbound Mail Volumes From Canada (Report Number FT-
AR-04-002, dated December 2, 2003).
9
  J.T. Weeker (Chicago) International Service Center – Inbound International Mail (Report Number FT-AR-06-013,
dated March 22, 2006).
10
   International systems include the international web-based application, MIDAS, and RVS.
11
   Efficiency of the Airmail Records Unit at the San Francisco International Service Center (Report Number NO-AR-
05-012, dated September 6, 2005).




                                                      3
San Francisco International Service Center -                                                    FT-AR-07-012
 Inbound International Mail


                                                  Results
Except for Parcel Post, including Coventry (upgraded) Parcels, inbound international
mail volumes were not always accurate and internal controls for recording inbound
international mail at the San Francisco ISC record unit needed strengthening.
Specifically, personnel did not properly process letter class inbound international mail
documents and timely enter the information into the international web-based application.
Also, employees did not retain Express Mail documentation as required. In addition,
inbound international Express Mail supporting documentation did not always support
information scanned into RVS.

Letter Class Inbound International Mail Documents

Personnel did not always properly process letter class inbound international mail
documents12 and timely enter the information into the international web-based
application. Although our initial sample did not yield a large amount of errors, we
observed a significant number of unprocessed letter class documents maintained in flat
trays, as follows:

     •   Approximately13 500 billing documents, dating back to January 2, 2006, were
         received and verified but not entered into the international web-based
         application.

     •   Approximately 260 billing documents, dating back to February 6, 2006, were
         received but not verified and entered into the international web-based
         application.

     •   Approximately 100 billing documents, dating back to April 2005, required
         documentation from the FPAs.

     •   Approximately 400 miscellaneous documents needed to be completed, matched
         and filed, or reviewed.

     •   Two flat trays of billing documents and supporting documentation from the FPAs
         from CYs 2001 through 2004 were considered trash by an IRU individual and not
         entered into the international web-based application.

     •   Approximately 390 requested documents received from foreign countries, dating
         back to May 2004, were not entered into the international web-based application.
         This included a significant number of FPA refusals to provide the requested
         billing documents due to elapsed time.
12
   Letter class inbound documentation includes, in part, the billing document (Form CN31 – Letter Bill), the
Verification Note (Form CN43), and other documents.
13
   Approximations were derived by performing a quick count of documents, considering documents stapled or clipped
together as one document.




                                                      4
San Francisco International Service Center -                                                    FT-AR-07-012
 Inbound International Mail



The following picture shows seven flat trays of unprocessed documents.




Universal Postal Union (UPU) guidelines require all postal administrations to submit
billing information and to request billing information in a timely manner. In order for the
Postal Service to bill and receive payment for services performed, personnel must
timely enter billing documentation into the system.

According to the record unit clerk, personnel did not perform the work due to the high
volume of documents. Also, management advised that the supervisor had
responsibilities at both the ISC and IRU, and ISC responsibilities were a priority.

When employees do not properly process and enter letter class inbound mail
documents into the international web-based application, the Postal Service increases its
risk of submitting incorrect billings to FPAs, having misstated revenues and receivables
in the General Ledger, and forgoing revenue for services provided. Also, the Postal
Service could incur costs for researching and resolving discrepancies and payment
could be delayed.

As a result of our audit, San Francisco IRU personnel entered documentation from all
seven flat trays into the international web-based application.14 We estimated the value
of missing dispatches for CYs 2004 and 2005 at approximately $922,478. Refer to
Appendix B for billing amounts for letter class inbound international mail documents not
properly processed and timely entered into the international web-based application. We

14
  The week after our site visit, the ISC manager developed a process for data entry for the unprocessed documents
included in the flat trays. This process took approximately 3 months to complete.




                                                      5
San Francisco International Service Center -                             FT-AR-07-012
 Inbound International Mail


will report $865,232 as monetary impact, recoverable revenue loss, and $57,246 as
unrecoverable revenue loss in our Semiannual Report to Congress.

Recommendation

We recommend the Plant Manager, San Francisco International Service Center:

1. Implement a procedure requiring adequate management oversight to ensure proper
   processing of inbound international letter class documents.

Management’s Comments

Management agreed with the recommendation and assigned a record unit supervisor to
oversee document processing. Management also agreed that employees had not
processed approximately 100 documents because they required documentation from
FPAs and stated they will enter all documents by the end of April 2007.

Management partially agreed with our observations regarding the 500 billing documents
received but not entered, and the 260 billing documents received but not verified and
entered. Regarding these documents, a backlog occurred because management
instructed employees not to enter billing documents due to a computer system upgrade
and subsequent computer system issues. However, management resolved the issue in
October 2006 and employees have now processed all documents.

Management disagreed, in part, with the observation regarding the two flat trays
considered trash. Management acknowledged they were not in complete compliance
with records retention policy. However, they stated documents from CYs 2001 and
2002 were beyond the time limit for entry and documents less than 3 years old were
pending documentation or responses from FPAs. Management advised that personnel
had entered all CY 2003 and 2004 documents by October 2006.

Furthermore, management was unclear how our observation on 400 miscellaneous
documents not completed, matched and filed, or reviewed differed from other
observations. However, management stated their response to the two flat trays also
addressed this issue, which they resolved in March 2007.

Management also disagreed with the observation that employees had not entered
approximately 390 requested documents from foreign countries. Management asserted
that IRU personnel did not process these documents because of noncompliant FPAs.
As a result, they will establish escalation procedures by September 2007. As of
January 2007, record unit personal had entered all CY 2004 pending documents into
the web-based application.

Management believes the $922,478 of monetary impact, including $865,232 of
recoverable revenue loss and $57,246 of unrecoverable revenue loss, in total,




                                               6
San Francisco International Service Center -                                                    FT-AR-07-012
 Inbound International Mail


reasonably approximates the value of the documents identified. Management noted
that since employees later entered information from these documents into the web-
based application, they have or will include their values in settlements with the FPAs.

Management‘s comments, in their entirety, are included in Appendix C.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation and actions taken or
planned should correct the issues identified in the finding. For clarification, the 400
miscellaneous documents included verification notes that were not completed, matched
or filed, and other miscellaneous documents that needed to be reviewed. We will
provide details of these items upon request.

Express Mail Dispatch Document Retention

Personnel did not retain Express Mail documentation at the San Francisco IRU as
required. Specifically, the IRU clerk retained Express Mail documentation for 6 months
before disposing of it. This occurred because San Francisco IRU personnel were not
aware of the updated record retention policy.

Prior to December 2003, the retention period for international Express Mail
documentation was 6 months. However, in our FY 2002 financial statements audit
report, we recommended the Postal Service modify the policy to retain the records for
the length of the business cycle or longer. Currently, Postal Service policy15 requires
management to retain international Express Mail documentation for 3 years.

Express Mail documentation has piece count information the Postal Service uses for
billing purposes. If management does not retain Express Mail documentation, the
Postal Service may not be able to support disputed billed amounts because settlement
can occur as late as 18 months after delivery date.

Recommendation

We recommend the Plant Manager, San Francisco International Service Center:

2. Communicate the current record retention policy to San Francisco international
   record unit employees.




15
     Policy memorandum dated December 22, 2003, Subject: Retention of International Dispatch Documentation.




                                                       7
San Francisco International Service Center -                                   FT-AR-07-012
 Inbound International Mail



Management’s Comments

Management agreed with our finding and communicated the current record retention
policy to IRU employees. The San Francisco record unit currently retains Express Mail
manifest documentation for 3 years. Management advised they resolved this issue in
July 2006. In addition, management plans to post record retention policy requirements
and conduct periodic reviews.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation and actions taken or
planned should correct the issues identified in the finding.

Other Observations

Delivery bill documentation generated by foreign countries sometimes differed from
weight information scanned into RVS based on barcode tags generated by those same
countries. Of 109 international Express Mail pieces reviewed,16 we found
33 discrepancies, including five where the recorded weight in RVS differed from the
weight on delivery bill documentation by one decimal place.

We did not research these discrepancies further or determine the cause of the
differences. However, since information from the issuing FPA is used for billing, we
offer this information to help reduce disputes over the accuracy of billing and delays in
the settlement of accounts receivable. These delays would result in additional research
cost for the Postal Service in settling disputes. According to Postal Service personnel,
they believe there are chronic issues with the dispatch documentation from certain
FPAs that make it impossible for IRU personnel to match them against data captured in
the Postal Service’s systems.

Management’s Comments

Management stated record unit personnel are responsible for resolving the types of
differences reported if they fall outside UPU tolerance thresholds and record unit
personnel will enter resulting adjustments in a timely manner.

Evaluation of Management’s Comments

Management’s comments are responsive to the observation. We will continue to
monitor this area as part of our future financial statements audit work.




16
     Documentation was unavailable for 19 of 109 Express Mail items sampled.




                                                       8
San Francisco International Service Center -                             FT-AR-07-012
 Inbound International Mail


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Siewert, Director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Lynn Malcolm
    Stephen J. Nickerson
    Vincent H. DeVito, Jr.
    Deborah A. Kendall




                                               9
San Francisco International Service Center -                                  FT-AR-07-012
 Inbound International Mail


                                               APPENDIX A

               STATISTICAL SAMPLING AND PROJECTIONS
            FOR THE AUDIT OF INTERNATIONAL INBOUND MAIL
        AT THE SAN FRANCISCO INTERNATIONAL SERVICE CENTER

Purpose of the Sampling

One of the objectives of this audit was to assess factors related to the correct entry of
inbound international mail into the MIDAS. In support of this objective, the audit team
employed a stratified random sample of four mail types. The sample design allows
statistical projection of the number of mail records with errors. In addition to an overall
projection of record errors, we made separate projections for each of the four mail
types: letter class/other mail (CN31), Express Mail (CN38), Coventry (upgraded)
Parcels (CP87 - Coventry), and Parcel Post (CP86 and CP87).

Definition of the Audit Universe

The original audit universe consisted of 68,399 inbound international mail records at the
San Francisco ISC for the period October 1, 2005, through March 31, 2006:

    •    Letter class/other: 11,966 records
    •    Express Mail: 37,171 records
    •    Coventry (upgraded) Parcels: 87 records
    •    Parcel Post: 19,175 records

The OIG Computer Assisted Assessment Techniques team obtained the audit universe
from the International Accounting Branch System database for inbound international
and Canadian mail.

During the assessment of sample records for the letter class mail type, the audit team
identified two duplicate records. Therefore, we adjusted the letter class mail type
universe size from 11,966 to 11,813 records to account for other duplicates in the
universe. The team did not review two valid records from the letter class sample; we,
therefore, eliminated those two records from both the audit universe and the sample.
This mail type adjustment reduced the audit universe to an estimated 68,244 records.

Sample Design and Modifications

We determined the sample size in each stratum separately. We used unrestricted
random sampling of records within each stratum.

For the letter class/other mail, we expected very low error rates based on prior-year
results. To determine the sample size for this mail type, we used a desired 10 percent




                                                  10
San Francisco International Service Center -                                 FT-AR-07-012
 Inbound International Mail


risk of over-reliance (beta risk), and a tolerable error rate of 5 percent as recommended
by the Government Accountability Office’s Financial Audit Manual for compliance
testing. Because of the low expected error rate, we calculated the letter class mail
sample size using the cumulative binomial methodology with an expected error rate of
2.5 percent based on the results of the FY 2005 audit at the Chicago IRU.

Our expected error rates for the other three classes of mail were higher, based on the
FY 2005 audit results at the Chicago location. For the Express Mail, Coventry
(upgraded) Parcels, and Parcel Post mail types, our expected error rates were 27
percent, 14 percent, and 17 percent, respectively. Because these high expected error
rates precluded use of the cumulative binomial methodology, we calculated sample
sizes for a two-sided normal distribution with a desired 90 percent confidence level and
a desired precision of +/- 7 percent.

The final sample sizes for each of the four mail classes are noted in the table of results
in the following section.

Statistical Projections of the Sample Data

For each mail class and for inbound international mail overall, we calculated the point
estimate of the total number of records with deviations and the corresponding error
percentage.

For mail types with high error rates, we applied the normal distribution methodology for
an unrestricted random sample as described in Chapter 3 of Model Assisted Survey
Sampling, Särndal, Swensson, and Wretman, 1991. In this latter case, we used a one-
sided 95 percent confidence interval to determine an upper error limit.

We applied the cumulative binomial methodology to determine the upper error limit for
those mail types with low error rates. We report those results with a 5 percent risk of
overreliance (or 95 percent reliability).

For the letter class mail records, the error rate was low but not zero. Therefore, we
calculated the 95 percent one-sided confidence interval for comparison to the binomial
upper error limit. The normal distribution method gave the tighter interval (lower upper
error limit), so we use that method in reporting the result for this mail type.

We used stratum weights to combine the individual uncertainty intervals for the four
strata to determine an overall upper error limit.

Based on projection of the sample results, we estimate errors in 18,040 inbound
international mail records in the period audited; the corresponding error rate is 26.4
percent. The 95 percent upper error limit on the total number of errors and the
corresponding projected error rate are 21,072 errors and 30.9 percent, respectively.




                                               11
San Francisco International Service Center -                                             FT-AR-07-012
 Inbound International Mail


We note the errors are dominated by the Express Mail mail type. The upper error limits
for the remaining three mail types are near the tolerable rate of 5 percent. The
Coventry Parcels mail type upper error limit slightly exceeds the 5 percent tolerable
level, but that mail type as a whole is an extremely small fraction of the audit universe.

Results are summarized in the table below:

                                                                Point
                                                             Estimate of
                                             Sample            Errors,
                                           (Number of        Number of        Upper Error Limit,*
                          Audit           Records with        Records         Number of Records
       Mail Type         Universe            Errors)           (Rate)               (Rate)
    Letter               11,811**             152***             311                  562
    class/Other                                 (4)            (2.6%)               (4.8%)
    Express Mail          37,171               109             17,733               20,667
                                               (52)           (47.7%)              (55.6%)
    Parcels Post             87                 39                0                    5
    Coventry
    Airmail                                    (0)             (0.0%)                (5.5%)
    Surface & Air         19,175               80                 0                    704
    Parcels                                    (0)             (0.0%)                (3.7%)
    (CP86)
    Overall,              68,244               380             18,044                21,072
    estimated
    without                                    (56)            (26.4%)               (30.9%)
    duplicates

    *    95 percent confidence.
    **   Estimated without duplicates and without two records not reviewed. Originally 11,966.
   ***   Without duplicates and without two records not reviewed. Originally 156.




                                                  12
San Francisco International Service Center -                                                  FT-AR-07-012
 Inbound International Mail


                                                   APPENDIX B

                        SAN FRANCISCO INTERNATIONAL
                      SERVICE CENTER MISSING DISPATCHES

CY 2004 dispatches (except those from industrialized countries) already passed the billing timeline set by
the UPU. FPAs have the right to refuse payment for this timeframe. Therefore, these dispatches were
classified as unrecoverable.

CY 2004 dispatches originating from industrialized countries are still recoverable because letter class
accounts between the Postal Service and the FPAs have not been settled to date. The parties have not
yet agreed on the CY 2004 Items per Kilogram rates.

All CY 2005 dispatches were classified as recoverable because the billing timeframe has not yet expired.
At the time of our analysis, July through September 2006, the St. Louis International Accounting Branch
was in the process of billing CY 2005 foreign country accounts.

                                                     Number      Average    Estimated
         Origin                                         of        Weight     Weight of
          City    Origin City   Origin Country       Missing        per      Missing       SDR *         U.S.
  CY     Code       Name            Name            Dispatches   Dispatch   Dispatches    Amount       Dollars**
 RECOVERABLE REVENUE LOSS:
 2005   BKRA      Boroko        Papua New                   36      14.00        504.10     1,727.54       $2,469
                                Guinea
 2005   CDGR      Insa Roissy   France                     187       7.70      1,439.30     5,930.95         8,475
                  Presse Prio   (Industrialized)
 2005   MNLA      Manila        Philippines                100     278.52     27,851.97    95,448.71      136,396


 2005   MNLA      Manila        Philippines                21       11.30        237.30      813.23          1,162


 2005   ONED      Gonesse       France                      42     289.82     12,172.53    50,159.59       71,678
                  Catmi Mep     (Industrialized)
 2005   RGNA      Union of      Union of                    10      74.27        742.74     2,545.38         3,637
                  Myanmar       Myanmar
 2005   SINA      Singapore     Singapore                   89      89.66      7,979.59    27,346.04       39,077


 2004   CDGR      Insa Roissy   France                     138       4.36        601.26     2,367.57         3,677
                  Presse Prio   (Industrialized)
 2004   GLAA      Glasgow       Great Britain               44     109.59      4,821.86    16,306.52       25,324


 2004   LALA      Langley       Great Britain              140     504.13     70,578.72   238,682.42      370,674
                                (Industrialized)
 2004   LALC      AMRU          Great Britain               90      87.17      7,845.19    26,530.79       41,202
                                (Industrialized)
 2004   ONED      Gonesse       France                      37     207.29      7,669.65    30,200.63       46,902
                  Catmi Mep     (Industrialized)
 2004   ONEE      Gonesse       France                      17      77.48      1,317.16     5,186.55         8,055
                  Catmi Mep 2   (Industrialized)
 2004   REAA      Reading       Great Britain               18     274.01      4,932.23    16,679.77       25,904
                                (Industrialized)




                                                      13
San Francisco International Service Center -                                                   FT-AR-07-012
 Inbound International Mail


                                                     Number      Average     Estimated
         Origin                                         of        Weight      Weight of
          City     Origin City    Origin Country     Missing        per       Missing        SDR *        U.S.
  CY     Code        Name             Name          Dispatches   Dispatch    Dispatches     Amount      Dollars**
 2004   TYOA      Tokyo          Japan                      54      279.73      15,105.27   51,899.64       80,600
                                 (Industrialized)

                                                                   TOTAL RECOVERABLE AMOUNT:             $865,232

 UNRECOVERABLE REVENUE LOSS:
 2004   BJSA      Beijing        China                     62        93.30       5,784.75   19,824.34     $30,787


 2004   BKRA      Boroko         Papua New                 11        16.41        180.47       618.47          961
                                 Guinea
 2004   INUA      Nuru           Rep. of Nauru             10         0.44           4.38       15.02           23


 2004   MNLA      Manila         Philippines               15        13.75        206.32      707.05          1,098


 2004   RGNA      Union of       Union of                  11        68.21        750.28     2,571.22         3,993
                  Myanmar        Myanmar
 2004   SALA      El Salvador    El Salvador               36        25.61        922.10     3,160.03         4,900


 2004   SINA      Singapore      Singapore                 67        43.40       2,907.89    9,965.34      15,476


                                                                  TOTAL UNRECOVERABLE AMOUNT:             $57,246



                                                                    TOTAL AMOUNT:                        $922,478


    *   SDR (Special Drawing Rights) monetary unit is designed by International Monetary Fund
        and is used by the UPU.
   **   Rounded to nearest dollar.




                                                      14
San Francisco International Service Center -           FT-AR-07-012
 Inbound International Mail


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                               15
San Francisco International Service Center -        FT-AR-07-012
 Inbound International Mail




                                               16
San Francisco International Service Center -        FT-AR-07-012
 Inbound International Mail




                                               17
San Francisco International Service Center -        FT-AR-07-012
 Inbound International Mail




                                               18
San Francisco International Service Center -        FT-AR-07-012
 Inbound International Mail




                                               19
